go- { £
pf (Cv

" a r

“1

1 .j -

No.

Supx';:'3 Couri, U.S.
FIL'D

1A0 2 7 AA
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

CEDRIC WESTBROOK
— PETITIONER
(Your Name)
vs.

CHRISTIAN PFEIFFER, Warden
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

SECOND APPELLATE DISTRICT COJRT OF CALIFORNIA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

CEDRIC WESTBROOK
(Your Name)
KVSP B5-209/P.O.Box 5102
(Address)
Delano, Ca 95216
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

Does the State Court have an arbitrary right to re-classify a legal document
into a specific classification of filings that the State kno/re has surmount­
able procedural hurdles, and not be violating Petitioner's Fourteenth Amend­
ment Rights?

LIST OF PARTIES

£x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

PETITIONER'S INDEPENDENT EQ JITABLE ACTION MOTION

APPENDIX B

L.A. SJPERIOR COJRT DENIAL ORDER

APPENDIX C

PETITIONER'S NOTICE OF APPEAL

APPENDIX D

SECOND APPELLATE DISTRICT COJRT DENIAL

APPENDIX E

PETITIONER'S PETITION FOR REVIEW

APPENDIX F

CALIFORNIA SJPREME COJRT DENIAL

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

Baske v. Burke (1981) 125 Cal.App.3d 38,H3; 177 Cal.Rptr. 79
Hazel-Atlas v. Hartford-Empire Company 322 J.S. 238; 6S.Ct. 997; 88 L.Ed
1250
Kulchar v. Kulchar (1969) 1 Cal.2d 67; 87 Cal.Rptr. */89
Rodriguez v. Cho (2015) 236 Cal.App.^th 7V2; 187 Cal.Rptr..3d 227
Jnite States v. Throckmorton

(1878) 98 J.S. 61; 25 L.E . 93

STATUTES AND RULES

California Code of Civil ProcedureHSt (b)

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
! or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Second Appellate District
to the petition and is
appears at Appendix
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[xf is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)in
to and including____
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner's Fourteenth Amendment and Equity Rights

STATEMENT OF THE CASE
On June 18, 2020, Petitioner had filed an "Independent Equitable Action
Claim," to set-aside Petitioner's lengthy default; and, requesting proper
review of Petitioner's case due to Petitioner never having priorly the privlege to a fair adversary hearing priorly (See Jnited States v. Throckmorton
(1878) 98 J.S. 61,65-66; 25 L.Ed. 93; and, Kulchar v. Kulchar (1969) 1 Cal.3cJ
*67; 82 Cal.Rptr. *89; *62 P.2d 17).
On July 15, 2020, the Los Angeles Superior Court decided to arbitrarly
convert Petitioner's equitable action claim into a general "habeas corpus,"
inorder to deny the Court's jurisdiction under equitable consideration. While,
in-addition, after Petitioner's appeal vas filed, the Second Appellate Dist­
rict Court decided to arbitrarily allege that the Lover Court had lacked
jurisdiction to grant Petitioner relief under the Court's equitable jurisdic­
tion. Plus, pointing out to Petitioner, the State's statutorial biasness
concerning useage of their Code of Civil Procedures § 7 (b); and, asserting
equitable jurisdiction under nonstatutorial grounds that the State's ovn
case lav shovs no indistinction (See Baske v. Burke (1981) 125 Cal.App.3d
38, *3; 177 Cal.Rptr. 79*; Rodriguez v. Cho (2015 ) 236 Cal.App.*th 7*2; 187
Cal.Rptr .3d 221).
On October 22, 2020, Petitioner's "Petition for Review" vas filed in the
California Supreme Gourt. Petitioner had addressed the arbitrary decisioning
of the Lover Court to conspicuously convert Petitioner's equitable action
into the general jurisdiction of habeas corpus proceedings. While, in-addition
pointing out from Jnited States Supreme Court decisions and Federal Rule
60(b) & (d), hov equitable reviev is a distinct grounds for equitable consid­
eration. Petitioner had requested from the State High Court remand and in­
instructions to the Lover Court on revieving Petitioner's proper equitable
motion (See Hazel-Atlas v. Hartford-Etnpire Company 322 J.S. 238,2V*; 6V S.Ct.
997; 88 L.Ed. 1250). Hovever, the State High Court denied their constitutional
obligation to enforce and keep vithin conformity the lavs of the land.

REASONS FOR GRANTING THE PETITION
There is an arbitrary inequity within the State of California's enforcement
of their la^s. Especially, if esquires specialized in the filings of equity
jurisdiction or given full consideration from filings; but, Petitioner as
amongst a non-acceptable class are rendered inequality and denial of due
process of larf, due to Petitioner's class not permitted to practice or research this field of la/tf rfith the State court. So, Petitioner requests from
the J.S. Supreme Court original jurisdiction inorder to enforce the State
of California equality and clue process in review of Petitioner's equitable
claims.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

January 13, 2021

